(   FUSAI                                          EMPLOYMENT AND TRAINING
                                                   ADMINISTRATION


     Office of Inspector General—Office of Audit




                                                   ENHANCED OVERSIGHT WILL IMPROVE STATE
                                                   WORKFORCE AGENCIES’ USE OF THE NATIONAL
                                                   DIRECTORY OF NEW HIRES TO PREVENT AND DETECT
                                                   UNEMPLOYMENT COMPENSATION OVERPAYMENTS




                                                                         Date:          March 31, 2009
                                                                         Report Number: 06-09-002-03-315
U.S. Department of Labor                                March 2009
Office of Inspector General
Office of Audit                                         WHAT OIG FOUND
                                                        Two major issues hampered ETA’s efforts to ensure
                                                        SWAs were using the NDNH effectively. ETA could
BRIEFLY…                                                not demonstrate it exercised sufficient oversight to
                                                        ensure that SWAs utilized information from the
                                                        NDNH to prevent and detect UC overpayments. ETA
Highlights of Report Number: 06-09-002-03-315           program oversight was insufficient because it lacked
Enhanced Oversight Will Improve State                   policies and procedures to perform timely and
Workforce Agencies’ Use of the National                 proper SWA on-site reviews. Without effective
Directory of New Hires to Prevent and Detect            reviews of SWAs’ use of the NDNH for the cross-
Unemployment Compensation Overpayments,                 match process, ETA cannot ensure the reliability of
                                                        the data provided by the states, and the value of
Employment and Training Administration
                                                        detected or possible undetected overpayments is
                                                        unknown or unvalidated.
WHY READ THE REPORT
                                                        In addition, ETA reported that 49 of the 53 SWAs
ETA is designated to ensure that states have            currently use the NDNH for BPC, and did not see a
methods of administration to assure full payment of     need to mandate use of the NDNH for BPC because
unemployment compensation (UC) when due and to          it expected that all states will soon be voluntarily
prevent overpayments. Based on Benefit Accuracy         matching NDNH for both BAM and BPC. California
Measurement (BAM) audits of sample claims, ETA          has the highest number of estimated claims in the
reported an estimated $800 million in overpayments      country--approximately 15 percent of UC claims
during Fiscal Year (FY) 2008 that were not identified   nationwide--and is one of the SWAs pending
or prevented through Benefit Payment Control            implementation.
(BPC) procedures, which included use of the NDNH.
                                                        WHAT OIG RECOMMENDED
WHY OIG DID THE AUDIT                                   We recommended that the Deputy Assistant
We initiated this audit because UC is the largest       Secretary for Employment and Training:
benefit program for which DOL is responsible. It is
essential for ETA to assure that SWAs are using the         1. Update the current Review Guide to include
NDNH to prevent and detect UC overpayments. As a               specific review steps addressing the states’
result, we conducted an audit of ETA’s oversight of            use of NDNH for the BPC cross-match
and progress in obtaining use of the NDNH by                   process; and during on-site reviews, assess
SWAs for BPC. We designed the audit to answer the              the filtering process for the NDNH cross-
following question:                                            match and validate the data reported by the
                                                               SWAs.
    •   Did ETA exercise sufficient oversight to            2. Increase the frequency of on-site reviews to
        ensure that SWAs utilized information from             more than once every four years.
        the NDNH to prevent and detect UC                   3. Require SWAs to submit quarterly 227
        overpayments?                                          Reports that include a line item for NDNH
                                                               cross-match results.
Our audit included the applicable policies,                 4. Continue to pursue legislation to define the
procedures and controls that ETA had in place for              “Date of Hire” as the first day of work for
use of the NDNH by SWAs as of September 30,                    new hires and mandate its reporting by
2008.                                                          employers.

READ THE FULL REPORT                                    The Deputy Assistant Secretary for Employment and
                                                        Training stated that ETA shared the OIG view that
To view the report, including the scope,                use of the NDNH improves the ability of SWAs to
methodology, and full agency response, go to:           prevent and detect improper payments. ETA also
                                                        noted that it has provided ongoing technical
http://www.oig.dol.gov/public/reports/oa/2009/06-09-    assistance to the SWAs since the NDNH became
002-03-315.pdf                                          available to the states. ETA agreed its efforts would
                                                        be strengthened by implementation of the OIG’s
                                                        recommendations.
                                                      U.S. Department of Labor – Office of Inspector General



Table of Contents
                                                                                                                       PAGE


Assistant Inspector General’s Report ......................................................................... 1

Results in Brief .............................................................................................................. 2

Objective - Did ETA exercise sufficient oversight to ensure that SWAs
utilized information from the NDNH to prevent and detect UC overpayment .......... 2

         Finding #1—The Employment and Training Administration did not
         provide sufficient oversight to ensure that the National Directory of New
         Hires was used effectively to detect and prevent unemployment
         compensation
         overpayments ..................................................................................................... 2

         Finding #2 —Four State Workforce Agencies have not implemented use
         of the National Directory of New Hires ............................................................. 5

Appendices.................................................................................................................... 9

         A. Background ................................................................................................. 11

         B. Objective, Scope, Methodology, and Criteria ........................................... 13

         C. Acronyms and Abbreviations .................................................................... 17

         D. Agency Response to Draft Report............................................................. 19




                                                                            ETA Oversight of States’ Use of NDNH
                                                                                   Report No. 06-09-002-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE HAS BEEN INTENTIONALLY LEFT BLANK




                            ETA Oversight of States’ Use of NDNH
                                   Report No. 06-09-002-03-315
                                                      U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                                  Office of Inspector General
                                                          Washington, D.C. 20210




March 31, 2009

                                  Assistant Inspector General’s Report


Mr. Douglas F. Small
Deputy Assistant Secretary for
 Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210

The U.S. Department of Labor (DOL), Office of Inspector General (OIG), audited the
DOL’s Employment and Training Administration’s (ETA) oversight of the State
Workforce Agencies’ (SWA) use of the National Directory of New Hires (NDNH). ETA is
designated to ensure that states have methods of administration to assure full payment
of unemployment compensation (UC) when due and to prevent overpayments. Based
on Benefit Accuracy Measurement (BAM) audits of sample claims, ETA reported an
estimated $800 million in overpayments during Fiscal Year (FY) 2008 that were not
identified or prevented through Benefit Payment Control (BPC) procedures, which
included use of the NDNH1.

Our audit objective was to answer the following question:

         Did ETA exercise sufficient oversight to ensure that SWAs utilized information
         from the NDNH to prevent and detect UC overpayments?

To assess ETA’s oversight of SWAs’ use of the NDNH, we examined the applicable
policies, procedures and controls that ETA had in place for use of the NDNH by SWAs
as of September 30, 2008.

We reviewed ETA’s policies and procedures for states reporting on the results of their
UC benefit cross-matches with the NDNH. We interviewed and corresponded with
various officials of ETA Headquarters and Regional staff along with unemployment
insurance (UI)-related staff from the SWAs of California, Washington, Alaska, Indiana,
Puerto Rico, and Washington, D.C. We obtained region-specific information for the

1
  As of September 30, 2008, BAM estimated roughly $1.87 billion of overpayments and BPC only established $1.05 billion of
overpayments. The BAM estimates are from April 1, 2007 to March 31, 2008, while the BPC estimates are for October 1, 2007 to
September 30, 2008. The last line of the report totals the columns for the entire United States. The column "Estimated Amt.
OP" (which is the BAM estimate of Overpayments) totals $1.869 billion. "BPC Established" (the overpayments established by BPC)
totals $1.050 billion. The net difference between the BAM estimate and BPC established overpayments is $819 million. This
information is pulled from a report used for Government Performance and Results Act (GPRA) goal, "Detect Overpayments."
                                                                           ETA Oversight of States’ Use of NDNH
                                                                                  Report No. 06-09-002-03-315
                                      U.S. Department of Labor – Office of Inspector General


Dallas and San Francisco ETA offices regarding their assessment of the states’
reporting. Additionally, we conducted on-site work at the California and Washington
SWAs.

We conducted our audit in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We conclude that the evidence
obtained provides a sufficient basis for our findings and conclusions based on our audit
objective. Our audit objective, scope, methodology and criteria are detailed in
Appendix B.

RESULTS IN BRIEF

Two major issues hampered ETA’s efforts to ensure SWAs were using the NDNH
effectively. ETA could not demonstrate it exercised sufficient oversight to ensure that
SWAs utilized information from the NDNH to prevent and detect UC overpayments. ETA
program oversight was insufficient because it lacked policies and procedures to perform
timely and proper SWA on-site reviews. Without effective reviews of SWAs’ use of the
NDNH for the cross-match process, ETA cannot ensure the reliability of the data
provided by the states, and the value of detected or possible undetected overpayments
is unknown or unvalidated.

In addition, ETA reported that 49 of the 53 SWAs currently use the NDNH for BPC, and
did not see a need to mandate use of the NDNH for BPC because it expected that all
states will soon be voluntarily matching NDNH for both BAM and BPC. California has
the highest number of estimated claims in the country -- approximately 15 percent of UC
claims nationwide -- and is one of the SWAs pending implementation.

ETA’s response to the draft report concurred with the recommendations and is attached
in Appendix D. Our findings remain unchanged from those presented in the draft report.

RESULTS AND FINDINGS

Objective − Did ETA exercise sufficient oversight to ensure that SWAs utilized
           information from the NDNH to prevent and detect UC overpayments?

Finding 1 − ETA did not provide sufficient oversight to ensure that the NDNH was
used effectively to detect and prevent UC overpayments.

Although ETA concluded from prior studies that the NDNH is an effective tool for BPC
cross-matches to identify UC overpayments, ETA could not demonstrate it exercised
sufficient oversight to ensure that SWAs utilized information from the NDNH to prevent
and detect UC overpayments. ETA program oversight was insufficient because the
agency (1) lacked adequate policies and procedures in its review guide; (2) did not
conduct timely SWA on-site reviews; (3) did not require SWAs to report NDNH results
                                            -2-       ETA Oversight of States’ Use of NDNH
                                                             Report No. 06-09-002-03-315
                                        U.S. Department of Labor – Office of Inspector General


separately; (4) and did not review the SWAs’ filtering processes or validate reported
data.

Office of Management and Budget (OMB) Circular A-123, Management’s Responsibility
for Internal Control, mandates that monitoring be performed to allow management to
determine the effectiveness of internal controls, and it should occur in the normal course
of business. Since the NDNH is used as an important detection tool in the BPC, ETA
should conduct periodic assessments of its effectiveness.

This lack of oversight prevented ETA from being able to assess the effectiveness of
States’ NDNH cross-matches with their UC benefits. Under the Federal-State
partnership for maintaining the unemployment insurance program, ETA is responsible
for ensuring the SWAs comply with Federal standards requiring timely payment of
weekly unemployment benefits to eligible claimants when due. Without periodic reviews
of the SWAs’ processes for utilizing the NDNH, the reliability of the data provided by
states for their quarterly 227 Reports and the value of detected or possible undetected
overpayments is unknown or unvalidated.

   •   ETA’s Review Guide did not include adequate procedures to assess the
       SWAs’ use of the NDNH for the cross-match process

The Review Guide used when ETA conducted on-site BPC assessments of SWAs did
not have a section devoted specifically to the NDNH cross-match, but did have a
module for overpayment detection. During our fieldwork, ETA was updating the Review
Guide, and provided a draft which included separate breakouts of cross-matches
resulting from the NDNH and the State Directory of New Hires (SDNH).

The updated draft Review Guide did not include steps for ETA to assess how the SWAs
arrived at the initial hits from the cross-matches with the SDNH and NDNH, i.e., what
filtering the SWA used to arrive at these numbers and whether they were valid. Since
the NDNH is a relatively new addition to the BPC process, improved oversight of its use
by SWAs is needed in order for ETA to measure the benefits obtained from prevention
and detection of overpayments.

   •   ETA lacked timely on-site reviews of individual SWAs

ETA officials told us that the ETA regional offices scheduled site visits to each SWA
once every four years to review BPC operations, but these can be more frequent based
on risk assessments. The on-site reviews were oriented to evaluating the overall BPC
process, not just NDNH-specific results, because ETA believes that is most cost-
effective. ETA regional staff in Dallas stated that a third of their time on site is allocated
to reviewing cross-match results. Nationally, ETA stated they haven’t reviewed 19 of 53
SWAs within the last four years; and the two ETA regional offices we visited appeared
to have scheduled on-site reviews of some of their states less often than the goal of
every four years.


                                              -3-       ETA Oversight of States’ Use of NDNH
                                                               Report No. 06-09-002-03-315
                                     U.S. Department of Labor – Office of Inspector General


During the on-site BPC reviews, ETA evaluated NDNH case investigations to determine
if the process was handled properly. Although not a replacement for on-site visits, ETA
communicated with SWAs via teleconference (quarterly), periodic web-based seminars,
desk reviews, and risk assessments to identify and correct problems that arise. Also,
best practices used by states were communicated by ETA to other states exhibiting
lower performance.

Field Memorandum No. 5-05, issued January 19, 2005, provides that UI program
reviews should be conducted when states are determined to be at risk, rather than on a
periodic schedule. More frequent oversight of the use of the NDNH for BPC could lead
to better prevention and detection of UC overpayments. Given the amount of potential
overpayments from the UC program, this could lead to substantial savings. Additionally,
more frequent oversight would allow for a more accurate measurement of benefits
resulting from the UC payments cross-match with the NDNH.

   •   ETA did not require SWAs to identify NDNH cross-match results

ETA did not require SWAs to report results from their use of the NDNH for BPC. The
primary report that ETA used to compile UC overpayments was the 227 Report -
Overpayment Detection and Recovery Activities. This report summarized the amount of
Total Fraud and Non-fraud overpayments detected by the SWAs. It further broke down
the dollar amount into the means of detection by percentage. However, the detection
category for “New Hire X-Match” combined the results from both the SDNH and NDNH
cross-matches in a single line item.

Therefore, the results for the NDNH cross-matches cannot be identified separately. In
the absence of a separate line item for NDNH cross-match reporting in the 227 Report,
ETA cannot fully evaluate the overall effectiveness of the NDNH’s use. Adding a new
reporting requirement could also help ETA to more easily compare cross-match results
across all of the SWAs and identify discrepancies requiring follow-up action.

ETA staff told us that SWAs would have to be contacted individually in order to
determine each of their results from cross-matching with the NDNH. ETA National staff
stated that the last time the format of the 227 Report was updated was in FY 2001.
They suggested it would be cost prohibitive to modify the 227 Report to include a
separate line item that compiles results from NDNH use, and that some states don’t
have the ability to differentiate between SDNH and NDNH UC cross-match detections.
Furthermore, they stated that OMB clearance would be required for any changes ETA
wants to make to the report requirements.

   •   ETA did not review the SWAs’ cross-match filtering process or validate the
       completeness of their reported data

ETA did not have policies and procedures in place to require regional on-site reviews to
assess whether an SWA is using appropriate procedures to obtain NDNH initial cross-
match hits and filter out many of them from further BPC investigation. Instead, ETA
                                           -4-      ETA Oversight of States’ Use of NDNH
                                                           Report No. 06-09-002-03-315
                                                    U.S. Department of Labor – Office of Inspector General


accepted cross-match data reported by the SWAs and focused its review efforts on the
SWAs’ BPC procedures after the initial cross-match hits were selected for investigation.

As a result, without assessing the SWA’s cross-match filtering process, ETA cannot
determine if an SWA’s data on its 227 Report are complete or accurate. The BPC
overpayments detected, compared to the BAM estimate of overpayments, shows
undetected overpayments totaled more than $800 million in FY 20082. This amount
demonstrates the magnitude of UC claims that were not identified by SWAs in their BPC
investigations, and why it is critical for ETA to examine the appropriateness of SWA
filtering of initial hits from cross-matching with the NDNH.

Finding 2 − Four SWAs have not implemented use of the NDNH.

ETA efforts have resulted in 49 of the 53 SWAs using the NDNH for BPC, but four
SWAs do not. Also, ETA officials told us a need does not exist to mandate use of the
NDNH for BPC because it expected that all states would soon be voluntarily matching
NDNH for both BAM and BPC.

In January 2008 ETA did mandate that SWAs use the NDNH for BAM audits of sample
UC claims. This could further increase the amount of estimated overpayments
nationally, considering the increase in the number of UC claims in calendar year (CY)
2008 compared to 2007 and that the NDNH includes wages and new-hire data that are
not available from other BPC cross matches. An estimated $800 million in
overpayments, which were not identified by BPC in FY 2008, suggests that ETA needs
to ensure SWAs implement significant improvements in their BPC procedures,
especially those used for cross-matches with the NDNH.

ETA encouraged SWAs to use the NDNH for cross-matches with UC benefits as part of
BPC and expects the four remaining SWAs to begin doing so without the agency having
to issue a formal rule in the Federal Register. Two of the four SWAs responded to our
survey that they anticipated beginning to use the NDNH for BPC cross-matches by the
end of CY 2008. However, California and Indiana did not indicate when they will begin
using the NDNH for BPC. California is significant because it has the highest number of
estimated claims in the country, approximately 15 percent of UC claims nationwide.

The California SWA indicated that one reason it has not begun using the NDNH for BPC
is that improvements are needed - NDNH lacks a universally understood definition and
requirement to provide “Date of Hire” for new employees. Therefore, in lieu of the
NDNH, California is currently using its SDNH.

The requirements and definition for “Date of Hire” vary from state to state, but even if
the definition was standardized, employers are not currently required by law to submit
this information with their new-hire reporting. At the time of our audit, 21 states required
employers to report the “Date of Hire” for new employees, and an additional 29 states

2
    As reported in ETA FY 2008 Performance Report
                                                         -5-       ETA Oversight of States’ Use of NDNH
                                                                          Report No. 06-09-002-03-315
                                       U.S. Department of Labor – Office of Inspector General


made this reporting optional. Additionally, only 20 states had working definitions of
“Date of Hire” listed with their new-hire reporting requirements.

ETA has been unsuccessful in its efforts to obtain a universally understood definition
and requirement to provide “Date of Hire” for new employees that would improve the
effectiveness of NDNH cross-matches. A UI Integrity Act bill has been submitted to
Congress for four consecutive years. One provision of this draft legislation would
provide the definition for “Date of Hire” to be the date services for remuneration were
first performed by the employee and would require its reporting with new-hire
information.

An April 2007 Information Technology Support Center (ITSC) study -- sponsored in part
by ETA -- reported that inclusion of the “Date of Hire” for new employees would help to
increase the efficiency of NDNH use as it would provide more information on whether a
UC claimant had started work in the claimed benefit week. However, the ITSC study
also reported that, even without a “Date of Hire” in the NDNH, certain assumptions can
be built into the SWAs’ filters to analyze initial hits from their UC cross-matches with the
NDNH.

While SWAs can work around the lack of “Date of Hire” information through
assumptions built into their filters, doing so can produce false-positive initial hits from
the cross-matches. This could result in additional work for the SWAs because part of
BPC follow-up on initial cross-match hits entails staff contacting employers and
employees for additional information. Any false-positive initial cross-match hits that can
be eliminated through consistent “Date of Hire” reporting will reduce unnecessary follow
up and allow SWA staff to pursue more accurate initial cross-match hits.

ETA Response to Draft Report

In its response to our draft report, attached in Appendix D, ETA states that it shares the
OIG view that use of the NDNH improves the ability of SWAs to prevent and detect
improper payments. ETA also noted that it has provided ongoing technical assistance to
the SWAs since the NDNH became available to the states. ETA agrees its efforts would
be strengthened by implementation of the OIG’s recommendations.

Recommendations

We recommend that the Deputy Assistant Secretary for Employment and Training:

   1. Update the current Review Guide to include specific review steps addressing the
      states’ use of NDNH for the BPC cross-match process; and during on-site
      reviews, assess the filtering process for the NDNH cross-match and validate the
      data reported by the SWAs.

   2. Increase the frequency of on-site reviews to more than once every four years.


                                             -6-       ETA Oversight of States’ Use of NDNH
                                                              Report No. 06-09-002-03-315
                                      U.S. Department of Labor – Office of Inspector General


   3. Require SWAs to submit quarterly 227 Reports that include a line item for NDNH
      cross-match results.

   4. Continue to pursue legislation to define the “Date of Hire” as the first day of work
      for new hires and mandate its reporting by employers.




Elliot P. Lewis




                                            -7-      ETA Oversight of States’ Use of NDNH
                                                            Report No. 06-09-002-03-315
              U.S. Department of Labor – Office of Inspector General




PAGE HAS BEEN INTENTIONALLY LEFT BLANK




                   -8-       ETA Oversight of States’ Use of NDNH
                                    Report No. 06-09-002-03-315
             U.S. Department of Labor – Office of Inspector General




Appendices




                  -9-       ETA Oversight of States’ Use of NDNH
                                   Report No. 06-09-002-03-315
             U.S. Department of Labor – Office of Inspector General




PAGE HAS BEEN INTENTIONALLY LEFT BLANK




                 - 10 -     ETA Oversight of States’ Use of NDNH
                                   Report No. 06-09-002-03-315
                                     U.S. Department of Labor – Office of Inspector General


                                                                             Appendix A
BACKGROUND

Unemployment benefit programs are administered by the states in a unique partnership
with the Department. Within DOL, ETA is responsible for providing oversight and
ensuring Federal standards are maintained for the UC Programs. As the largest benefit
program for which DOL is responsible, it is essential for ETA to assure that SWAs are
using the NDNH to prevent and detect UC overpayments. As a result, we conducted an
audit of ETA’s oversight of and progress in obtaining use of the NDNH by SWAs for
BPC.

State UC provides benefits to workers who are unemployed because of a lack of
suitable work and meet other eligibility requirements established by State UI Laws. UC
benefits are financed through employer taxes collected by states and deposited into the
Unemployment Trust Fund (UTF) in the U.S. Treasury until needed to pay benefits.
Taxes for the administrative costs of SWAs are collected by the Internal Revenue
Service based on the Federal Unemployment Tax Act (FUTA), and also held in the
UTF. Annual operating costs for ETA and the states are appropriated and funded
through the FUTA taxes.

ETA funds SWAs, which administer the UC programs, through a variety of grant
agreements. Title III grants under the Social Security Act (SSA) fund basic state UI
administrative operations. ETA grants to fund the other UC programs are authorized
under a variety of statutes.

The ETA ensures that states have methods of administration to ensure full payment of
UC when due. ETA authority for oversight of BPC for UC benefits administered by
SWAs is based on Section 303(a)(1) of the SSA. On November 28, 2000, ETA
published in the Federal Register an Unemployment Insurance Program Letter (UIPL)
interpreting Federal UI Law, based on SSA Section 303(a)(1), to require states to
assure that weekly UC claims are paid timely, but only when claimants are determined
to be eligible.

ETA requires SWAs to conduct BAM audits of sample claims in order to estimate the
amount of UC benefits that are overpaid. In FY 20081, approximately $1.9 billion UC
overpayments were estimated based on the sample claims audited. During a
comparable period, SWAs identified approximately $1 billion from BPC procedures
performed to identify overpayments to claimants, meaning that more than $800 million
of additional estimated overpayments were not being detected or prevented by the BPC
process. The BPC procedures involve the use of various detection tools to identify UC
overpayments.

Traditionally, states used their SDNH and quarterly wage matching to identify UC
overpayments. In 2004 Public Law 108–295 (“State Unemployment Tax Act (SUTA)
Dumping Prevention Act of 2004”) authorized SWAs to access the NDNH “for purposes
of administering an unemployment compensation program under Federal or State law.”
                                         - 11 -     ETA Oversight of States’ Use of NDNH
                                                           Report No. 06-09-002-03-315
                                      U.S. Department of Labor – Office of Inspector General


The Federal Office of Child Support Enforcement within the U.S. Department of Health
and Human Services operates the NDNH. This database was established pursuant to
the Personal Responsibility and Work Opportunity Reconciliation Act of 1996. The
primary purpose of the NDNH initially was to assist state child support agencies in
locating parents and enforcing child support orders. The NDNH not only includes all the
new hire information from every SDNH, but also Federal and military new hires, and the
new hires from large multi-state employers that report data to a single state. This
provides SWAs with a comprehensive tool to use in BPC operations.

During FY 2005, the Office of the Chief Financial Officer and ETA initiated a pilot study
to determine how NDNH cross-matching could help to identify and reduce UC
overpayments. Based on evidence that using the NDNH would increase overpayments
detected by BPC, ETA published UIPL No. 22-06 on June 2, 2006. This UIPL provided
the results of the pilot and encouraged SWAs to take advantage of the NDNH as a tool
for UI program integrity. ETA went further with UIPL No. 3-07 on October 31, 2006. In it,
ETA modified Employment and Training Handbook 395 to incorporate cross-matches
with the NDNH as a mandatory part of the BAM case investigation methodology. The
UIPL mandated the requirement to be effective with the sampling week ending
January 5, 2008.

A prior OIG audit report that tested ETA controls, i.e. policy requirements, concluded
that the NDNH was the best tool for BPC cross-matching with UC benefits to identify
claimants that had not properly reported earnings after their return to work, who are
thereby determined to be overpaid. The NDNH cross-matches provide more timely
identification of UC benefit overpayments compared to cross-matches with quarterly
wage records.

A subsequent ITSC study of NDNH cross-match implementation for five SWAs
identified beneficial results for the participating SWAs and encouraged wider adoption of
the NDNH cross-match in the other SWAs’ BPCs.




                                          - 12 -     ETA Oversight of States’ Use of NDNH
                                                            Report No. 06-09-002-03-315
                                      U.S. Department of Labor – Office of Inspector General


                                                                              Appendix B

OBJECTIVE, SCOPE, METHODOLOGY, AND CRITERIA

Objective

We conducted a performance audit of ETA’s policy and internal controls for SWAs’ use
of the NDNH for BPC in order to answer the following question:

        Did ETA exercise sufficient oversight to ensure that SWAs utilized information
        from the NDNH to prevent and detect UC overpayments?

Scope

The audit was conducted in accordance with generally accepted government auditing
standards for performance audits. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a sufficient basis for our findings and conclusions based on our audit
objective.

We examined the applicable policies, procedures and controls that ETA had in place
related to the use of the NDNH by SWAs for the period of January 1, 2007, through
September 30, 2008. We interviewed and corresponded with various officials of ETA
Headquarters and Regional staff along with UI-related staff from the SWAs of California,
Washington, Alaska, Indiana, Puerto Rico, and District of Columbia

We performed audit work at the following locations:
  • ETA Headquarters in District of Columbia
  • ETA regional offices in Dallas, Texas and San Francisco, California
  • State capitols at Sacramento, California and Olympia, Washington

We also performed telephone surveys from our office in Denver, Colorado of the
following SWAs:
    • Juneau, Alaska
    • Indianapolis, Indiana
    • San Juan, Puerto Rico
    • Washington, D.C.




                                           - 13 -     ETA Oversight of States’ Use of NDNH
                                                             Report No. 06-09-002-03-315
                                      U.S. Department of Labor – Office of Inspector General


Methodology

We researched applicable policies and procedures, laws and regulations, and assessed
ETA’s oversight process in place to monitor SWA operations for BPC. We also reviewed
various reports on BPC overpayment detection that included totals by state and means
of detection.

We met with officials at ETA Headquarters to obtain an overview of BPC and the status
of SWAs’ use of the NDNH. We also met with ETA officials in the Dallas and San
Francisco regional offices to obtain region-specific information related to oversight of
use of the NDNH. Finally, we conducted on-site visits to California and Washington.

While on site in each state, we conducted interviews of relevant UC staff and conducted
walkthroughs of BPC operations. We also reviewed applicable policies and procedures
related to each SWA’s UC operations. Finally, we performed analyses of Benefit Audit
Reporting and Tracking System data provided by Washington State (using software
licensed by a private vendor) that is the basis for its ETA 227 Report.

Two SWAs were reviewed to gain further understanding of the ETA policies for use of
the NDNH. The two states were selected judgmentally and did not provide sample
results that could be projected to the population of all 53 SWAs. Rather, our work at the
SWAs was performed to enhance our understanding of ETA policy requirements which
we obtained through analytical procedures.

We selected two SWAs for review: Washington, which uses the NDNH; and California,
which does not:

   •   The Washington SWA was selected from states with less than 10 percent of
       their BPC overpayments reported based on the NDNH cross-match (the low
       results category). Additionally, Washington had reported a 210 percent rate
       of overpayments identified from the BPC process -- the largest proportion of any
       state -- compared to the BAM estimate of operational overpayments.

   •   The California SWA was selected because it is one of four states not using the
       NDNH to cross-match, and had the largest amount of UC benefits paid in CY
       2007 for any state. It was also in the middle range for detection of BPC
       overpayments based on use of the SDNH.

Four additional SWAs were contacted by telephone to determine their status and plans
to begin using the NDNH for BPC. The four SWAs were surveyed because, along with
California, they constituted the entire population of SWAs identified by ETA as not using
the NDNH.

ETA did not have any computer generated data identifiable for NDNH since there was
no separate NDNH data provided on the ETA 227 Report. As a result, we could not and
did not assess NDNH data reliability. We conducted limited data reliability testing for
                                          - 14 -     ETA Oversight of States’ Use of NDNH
                                                            Report No. 06-09-002-03-315
                                     U.S. Department of Labor – Office of Inspector General


several spreadsheets provided by the Washington SWA. The Washington SWA found
use of the NDNH resulted in an average increase of 32 percent in the total number of
initial cross-match hits to identify overpayments for years 2006-2008, which we were
able to confirm in our test of the data reliability.

We evaluated the internal controls pertaining to whether the ETA exercised sufficient
oversight to ensure that SWAs utilize information from the NDNH to prevent and detect
UC overpayments. We identified the lack of internal controls as significant
weaknesses. We evaluated the internal controls pertaining to our objective. Our
consideration of internal controls would not necessarily disclose all matters that might
be reportable conditions. Because of inherent limitations in internal controls,
misstatements, losses, or noncompliance may nevertheless occur and not be detected.

ETA does not have a reporting process for the SWAs regarding results achieved
specifically from the UC cross-match with NDNH for BPC. As a result, there were no
relevant controls on which to test compliance. Recommendations 1 through 4 require
improvements to the oversight process.




                                          - 15 -    ETA Oversight of States’ Use of NDNH
                                                           Report No. 06-09-002-03-315
                                       U.S. Department of Labor – Office of Inspector General


Criteria

   •   OMB Circular A-123, dated December 21, 2004

   •   UIPL No. 3-07, dated October 31, 2006

   •   UIPL No. 04-01 published in the Federal Register, November 28, 2000

   •   Section 303 (a)(1) of the SSA

   •   UIPL No. 19-04, dated March 31, 2004

   •   UIPL 14-05, Change 1, dated October 12, 2005

   •   UIPL No. 22-06, dated June 2, 2006

   •   UIPL No. 3-07, Change 1, dated February 27, 2008

   •   UIPL No. 12-07, dated February 16, 2007

   •   UI Reports Handbook No. 401 ETA 227, dated April 2007

   •   UIPL No. 19-08, dated May 30, 2008

   •   ITSC NDNH System Study, dated April 2007

   •   Personal Responsibility and Work Opportunity Reconciliation Act of 1996

   •   UI NDNH Pilot Report, dated September 21, 2005




                                           - 16 -     ETA Oversight of States’ Use of NDNH
                                                             Report No. 06-09-002-03-315
                              U.S. Department of Labor – Office of Inspector General


                                                                      Appendix C
ACRONYMS AND ABBREVIATIONS


BAM          Benefit Accuracy Measurement
BPC          Benefit Payment Control
CY           Calendar Year
DOL          Department of Labor
ETA          Employment and Training Administration
FUTA         Federal Unemployment Tax Act
FY           Fiscal Year
ITSC         Information Technology Support Center
NDNH         National Directory of New Hires
OIG          Office of Inspector General
OMB          Office of Management and Budget
SDNH         State Directory of New Hires
SSA          Social Security Act
SWA          State Workforce Agency
UC           Unemployment Compensation
UI           Unemployment Insurance
UIPL         Unemployment Insurance Program Letter
UTF          Unemployment Trust Fund




                                   - 17 -      ETA Oversight of States’ Use of NDNH
                                                      Report No. 06-09-002-03-315
              U.S. Department of Labor – Office of Inspector General




PAGE HAS BEEN INTENTIONALLY LEFT BLANK




                  - 18 -     ETA Oversight of States’ Use of NDNH
                                    Report No. 06-09-002-03-315
                     U.S. Department of Labor – Office of Inspector General


                                                             Appendix D
AGENCY RESPONSE TO DRAFT REPORT




                         - 19 -     ETA Oversight of States’ Use of NDNH
                                           Report No. 06-09-002-03-315
U.S. Department of Labor – Office of Inspector General




    - 20 -     ETA Oversight of States’ Use of NDNH
                      Report No. 06-09-002-03-315
IN ORDER TO REPORT FRAUD, WASTE OR ABUSE, PLEASE CONTACT:

Online:       http://www.oig.dol.gov/hotlineform.htm
Email:        hotline@oig.dol.gov

Telephone:    1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210

                               - 21 -
